HHS/OIG, Audit -"Review of the North Shore University Hospital's Controls to Ensure
Accuracy of Wage Data Used for Calculating Inpatient Prospective Payment System Wage Indexes,"(A-02-05-01008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the North Shore University Hospital's Controls to Ensure
Accuracy of Wage Data Used for Calculating Inpatient Prospective Payment System Wage Indexes," (A-02-05-01008)
May 4, 2006
Complete
Text of Report is available in PDF format (618 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether North Shore University Hospital (the
hospital) complied with Medicare requirements for reporting wage data in its fiscal year
(FY) 2003 Medicare cost report.  The hospital did not fully comply with Medicare requirements
for reporting wage data in its FY 2003 Medicare cost report.  Specifically, the hospital
overstated its wage data by $3,119,582 and 1,567 hours.
We recommended that the hospital:  (1) submit a revised FY 2003 Medicare cost report
to the fiscal intermediary to correct the wage data overstatements totaling $3,119,582 and
1,567 hours; and (2) implement review and reconciliation procedures to ensure that the wage
data reported on future Medicare cost reports are accurate, supportable, and in compliance
with Medicare requirements.  The hospital concurred with three of our findings, but
disagreed with our finding on unfunded pension and post retirement benefit costs.